                                CLOSEOUT FOR M94060025




 that were unique to a po&octoral Mow. The a q h a n t explained that the subjed should have
 contactedthepodoct~raltPllowtoaskfbr~tousehisideas.



                                                                      inthesamerescarchgroup. The           .   '


 complainant told OIG that he had not dkussed the aIlegaEion with the p o d o d d &w.
        OIG contacted the postdoctoral Mow who confiirmed that he and the subject had worked
together fbr about a year as a part of a laboratory research group and that he had developed in
cooperation with the research group, ideas and experiments in the topic area He said that the subject
had the right to use these ideas in any way she wanted and did not need to ask fix his penr6ssion to do
so because these ideas were a ampsite of material prMished m the literatme and firrther developed in
gnwp cikasions and, therefbre, were not unique to him

         ThegostdoddMowdtRatsomeoftheideasthatheand~~haddeveJopedwere
 part of his NSF fimded f k h d i p grogosal
~Heexphhedth.he-~theseidarbemuseheWdanso;lhisrrrard,LI
&&&on 0 1 ~ n o t e d t h a t t h e ~ s & t h e p o a ~ d o c r d & d s p m p r m l . ~ ~ s e v ~ l
 similarsrperiments a n d c m c h k d t h a t t h e ~ w e r e t h e r e s u oftheir
                                                                            h       rmtual researdr interests
 andgroup-ons.

         OIG could find no evidence that the &as presented m the subject's proposal were unique to
 the postdoctoral %w and conduded that there was no substance to the a k g a h n that the subject had
 mhppmphed ideas into his NSF prop<wal.

        ThisinquirywasdosedandnofitrthehacthPrvilsbetaken

 cc:     Staff.' Scientist, Deprty Aim* N            W     & I6




                                         Page B of t
